Appendix A.
Opinion of the Court of Appeal for the First
District, Division Four, December 20, 2010
(unpublished) in Appeal No. A156248.

Court of Appeal, First Appellate District
Charles D. Johnson, Clerk/Exectilive Officer
Electronically FILED on 12/20/2019 by C. Hoo, Deputy Clerk

Filed 12/20/19

NOT TO BE PUBLISHED IN OFFICIAL REPORTS
California Rules of Court, rule 8.1115(ajt prohibits courts and parties from citing^or relyinc^on opinions not certified forj>ubHcation or
purposes of rule 8! 1115._______________________________________________________________________________________

IN THE COURT OF APPEAL OF THE STATE OF CALIFORNIA
FIRST APPELLATE DISTRICT
DIVISION FOUR

TATYANA E. DREVALEVA,
Plaintiff and Appellant,

A156248

v.
(Alameda County
Super. Ct. No. RG17881790)

DEPARTMENT OF INDUSTRIAL
RELATIONS,
Defendant and Respondent.

This is plaintiff Tatyana Drevaleva’s fourth appeal in the same litigation. In this
appeal, she challenges the trial court’s denial of her motion to stay the litigation pending
the outcome of a similar lawsuit she filed in federal court and the trial court’s denial of
her motion requesting the court to issue a writ of mandate requiring the Department of
Industrial Relations (DIR) to transfer her case to the Department of General Services
(DGS). We find no error and affirm.
FACTS AND PROCEDURAL HISTORY
The facts and procedural history from the underlying litigation are set forth fully
in the unpublished opinion, Drevaleva v. Department ofIndustrial Relations (Dec. 20,
2019, 155165, 155187, 155899) [nonpub. opn.], and we adopt and incorporate the facts in
that unpublished opinion by reference.
Briefly summarized, plaintiff sued the DIR, claiming that it made libelous
statements and committed negligent acts during its investigation of the retaliation and
wage claims she filed with the DIR against her employer, Alameda Health System
1

(AHS). Plaintiff filed a similar lawsuit in federal court against the DIR and AHS; she
later amended her complaint in the federal case to drop the DIR and name its individual
employees after learning that the DIR had Eleventh Amendment immunity.
Plaintiff filed two motions relevant to this appeal: (1) a motion to stay the
litigation pursuant to Code of Civil Procedure1 section 404.5 pending resolution of her
federal lawsuit; and (2) a motion entitled, “Notice of Petition; Petition for a Writ of
Mandate and a Declaratory Relief to Compel DIR Transfer my Case to the Department of
General Services” (the writ motion). The trial court denied the former as unwarranted
and the latter as procedurally and substantively deficient. Plaintiff moved for
reconsideration of the denial of her motion to stay and set the hearing for October 2,
2018. On October 4, 2018, the court denied this motion for lack ofjurisdiction and good
cause.
Meanwhile, on August 17, 2018, the trial court granted in part the DIR’s antiSLAPP motion (§ 425.16) and sustained a demurrer to the remainder of plaintiffs
complaint without leave to amend. In its demurrer ruling, the trial court dismissed the
action in its entirety.
On August 21, 2018, plaintiff filed a notice of appeal from an order or judgment
under section 904.1, subdivision (a)(3)—(13). On August 29, 2018, plaintiff filed another
notice of appeal, indicating that she appealed from a judgment of dismissal after an order
sustaining a demurrer and an order or judgment under section 904.1, subdivision (a)(3)(13). Plaintiff then filed a third notice of appeal from October 2018 orders from the trial
court denying her attorney’s fees and costs under section 425.16, subdivision (c)(1) and
Government Code section 6259, former subdivision (d). This court consolidated those
three appeals.
On January 16, 2019, plaintiff filed her last notice of appeal, this time purporting
to appeal a judgment of dismissal under sections 58 Id, 583.250, 583.360, or 583.430.

i

All statutory references are to the Code of Civil Procedure unless otherwise

stated.
2

DISCUSSION
As an initial matter, plaintiff appears to have forfeited her claims in this appeal by
failing to raise them in her first appeal from the final judgment. A party is entitled to one
appeal from a final judgment {Jordan v. Malone (1992) 5 Cal.App.4th 18, 21), and all
issues that an appellant seeks to raise should be set forth in the opening appellate brief
(see Kelly v. CB&I Constructors, Inc. (2009) 179 Cal.App.4th 442, 451-452 [points not
raised in an opening brief on appeal will not be considered].) Plaintiff concedes that the
trial court’s August 17, 2018 order sustaining the DIR’s demurrer without leave to amend
and dismissing the entire action was the equivalent of the final judgment. (See Daar v.
Yellow Cab Co. (1967) 67 Cal.2d 695, 699; Hudis v. Crawford {2005) 125 Cal.App.4th
1586, 1590, fii. 4.) She appealed from the final judgment on August 29, 2018 and filed
an opening brief in that appeal on December 6, 2018 that does not discuss the issues in
this appeal. Plaintiff should not get a chance to resurrect issues that she forfeited in her
earlier appeal by filing a new notice of appeal from the same final judgment.
Nonetheless, even if plaintiff has not forfeited her claims in this appeal, neither
has merit. We review the trial court’s order denying a motion to stay for abuse of
discretion. {In re Alpha Media Resort Investment Cases (2019) 39 Cal.App.5th 1121,
1131.) Plaintiff requested to stay the litigation under section 404.5 until her federal
lawsuit resolved. In actions sharing a common question of fact or law pending in
different courts, a petition for coordination may be submitted to the Chairperson of the
Judicial Council. (§ 404.) Under section 404.5, “Pending any determination of whether
coordination is appropriate, the judge making that determination may stay any action
being considered for, or affecting an action being considered for, coordination.” Because
there was no petition for coordination pending, the trial court did not abuse its discretion
in denying plaintiffs motion to stay. The trial court also properly denied plaintiffs
motion for reconsideration of this order for failure to show new or different facts or law
(§ 1008), and for lack ofjurisdiction after plaintiff appealed from the final judgment of
dismissal. {Safeco Ins. Co. v. Architectural Facades Unlimited, Inc. (2005)
134Cal.App.4th 1477, 1482.)
3

On review of a trial court’s order on a petition for writ of mandate, we apply the
substantial evidence standard to the trial court’s factual findings and exercise independent
judgment on legal issues. (Today’s Fresh Start Charter School v. Inglewood Unified
School Dist. (2018) 20 Cal.App.5th 276, 281.) The trial court ruled, among other things,
that plaintiffs writ motion was procedurally deficient because she did not file a verified
petition containing the requisite factual allegations and substantively deficient for its
failure to identify a duty on the part of the DIR to transfer the case to DGS. Plaintiff
establishes no basis to reverse this ruling.
To initiate writ of mandate proceedings by petition, a party must file and serve a
verified petition of a party beneficially interested (§ 1086) alleging facts showing that the
defendant had a clear duty to act; petitioner had a beneficial interest in the defendant’s
performance of the duty; the defendant had the ability to perform the duty; the
defendant’s failure to perform the duty or abuse of discretion if acting; and no other plain,
speedy, or adequate remedy exists. (Collins v. Thurmond (2019) 41 Cal.App.5th 879,
915.) Plaintiff does not cite to or provide a record showing that she submitted a verified
petition as opposed to a motion, and her declaration in support of the writ motion does
not contain the required verified factual allegations.2 {Kurinij v. Hanna & Morton (1997)
55 Cal.App.4th 853, 865 [appellant has the burden to present a record establishing
error].) Plaintiff also waived her challenge to this aspect of the trial court’s ruling by
merely referring us to her briefing on verification in another appeal. {Jones v. Superior
Court (1994) 26 Cal.App.4th 92, 99.) Finally, the statutes cited by plaintiff, general
provisions of the Administrative Procedures Act (Gov. Code, §§ 11370, 11370.2,
11370.5, subd. (a))3, and Government Code section 11501, subdivision (b) addressing
2 Plaintiff declares under penalty of perjury that: “[(1)] on March 22, 2018,1
submitted my Request to Transfer my Case from DIR to DGS to be reviewed by the
Administrative Law Judge[; (2)] DIR never transferred my case to DGS[; (3)] I am
asking the court to compel DIR to transfer my case to DGS. I am also asking for
Declaratory relief[; and (4)] I am asking for Attorney’s Fees pursuant to 5 USCS § 504 at
the amount determined by the Court.”
3 Government Code section 11370 states, “Chapter 3.5 (commencing with Section
4

adjudicatory hearings of state agencies4, do not establish that the DIR had a clear legal
duty to transfer its closed investigations to DGS.
DISPOSITION
The judgment is affirmed. The DIR is to recover its costs on appeal.

11340), Chapter 4 (commencing with Section 11370), Chapter 4.5 (commencing with
Section 11400), and Chapter 5 (commencing with Section 11500) constitute, and may be
cited as, the Administrative Procedure Act.”
Government Code section 11370.2 states, “(a) There is in the Department of
General Services the Office of Administrative Hearings which is under the direction and
control of an executive officer who shall be known as the director, [f] (b) The director
shall have the same qualifications as administrative law judges, and shall be appointed by
the Governor subject to the confirmation of the Senate, ffl] (c) Any and all references in
any law to the Office of Administrative Procedure shall be deemed to be the Office of
Administrative Hearings.”
Government Code section 11370.5, subdivision (a) states, “The office is
authorized and directed to study the subject of administrative adjudication in all its
aspects; to submit its suggestions to the various agencies in the interests of fairness,
uniformity and the expedition of business; and to report its recommendations to the
Governor and Legislature. All departments, agencies, officers, and employees of the
state shall give the office ready access to their records and full information and
reasonable assistance in any matter of research requiring recourse to them or to data
within their knowledge or control. Nothing in this section authorizes an agency to
provide access to records required by statute to be kept confidential.”
4 The adjudicatory provisions of the Administrative Procedures Act for formal
hearings apply to agency hearings where the statutes applicable to an agency so provide
and the hearing is not governed by a more specific statute. (Gov. Code, § 11501,
subds. (a) & (b); Lacy v. Orr (1969) 276 Cal.App.2d 198, 201-202.) Labor Code
sections 98.7 (retaliation claims) and 98 (wage claims) do not require formal hearings.
5

BROWN, J.

WE CONCUR:

STREETER, ACTING P. J.

TUCHER, J.

Drevalevav. Dept, ofIndustrial Relations (A 156248)

6

Appendix B.
Order of the Superior Court of Alameda County
that denied my Motion to Stay in the lawsuit
No. RG17881790, June 26, 2018.

Division of Labor Standards
Enforcement
Attn: Seitz, Nicholas
455 Golden Gate Avenue
9th Floor
San Francisco, CA 94102

Tatyana E. Drevaleva
10660 Hidden Mesa Place
Monterey, CA 93940__

Superior Court of California, County of Alameda
Rene C. Davidson Alameda County Courthouse
No. RG17881790

Drevaleva
Plaintif£7Petitioner(s)

Order
VS.

Motion to Stay Proceedings
Denied

Department of Industrial Relations
Defendant/Respondent( s)
(Abbreviated Title)

The Motion to Stay Proceedings was set for hearing on 06/26/2018 at 03:00 PM in Department 22
before the Honorable Harry Jacobs. The Tentative Ruling was published and was contested.
Plaintiff and Moving Party Tatyana E. Drevaleva appearing in pro per via conference call.Opposing
Party Department of Industrial Relations appeared by counsel Seitz, Nicholas.
The matter was argued and submitted, and good cause appearing therefore,
IT IS HEREBY ORDERED THAT:
The tentative ruling is affirmed as follows: The contested Motion to Stay the Proceeding, filed by
Plaintiff Tatyana E. Drevaleva ("Plaintiff') on April 9, 2018, is DENIED.
The motion is based on C.C.P. § 404.5, which states: "Pending any determination of whether
coordination is appropriate, the judge making that determination may stay any action being considered
for, or affecting an action being considered for, coordination." This statute is part of Chapter 3 of Title
4 of the Code of Civil Procedure, addressing "Coordination." Section 404 states in part: "When civil
actions sharing a common question of fact or law are pending in different courts, a petition for
coordination may be submitted ... by any party to one of the actions after obtaining permission from the
presiding judge, or by all of the parties plaintiff or defendant in any such action...." Here, there is no
such petition for coordination pending. Thus, a stay pursuant to C.C.P. § 404.5 is not warranted.
From her papers, it appears that Plaintiff is seeking to stay the action because of an appeal in the Ninth
Circuit Court of Appeals from a decision in Case No. 3:16-cv-07414-LB, in the federal district court
for the Northern District of California. Plaintiff has not cited sufficient authority for staying the instant
action because of such a federal court appeal. Further, Plaintiff filed a similar request on April 3, 2018,
which the court addressed in its order of April 10, 2018, ruling that Plaintiff had not shown good cause
to continue the hearings in this case on several law and motion matters because of the pendency of that
Ninth Circuit appeal. The same remains true based on the papers filed in connection with the instant
motion.
The clerk is directed to serve copies of this order, with proof of service, to counsel and to selfrepresented parties of record by mail, which shall satisfy the purposes of notice of entry of order under
C.C.P. § 1019.5(a).

Order

.y

Dated: 06/26/2018

;
facsimile

Judge Hany Jacobs

Order

Superior Court of California, County of Alameda
Rene C. Davidson Alameda County Courthouse

Case Number: RG17881790
Order After Hearing Re: of 06/26/2018

DECLARATION OF SERVICE BY MAIL
I certify that I am not a party to this cause and that a true and correct copy of the
foregoing document was mailed first class, postage prepaid, in a sealed envelope,
addressed as shown on the foregoing document or on the attached, and that the
mailing of the foregoing and execution of this certificate occurred at
1225 Fallon Street, Oakland, California.
Executed on 07/02/2018.
Chad Finke Executive Officer / Clerk of the Superior Court
By

Digital

Deputy Clerk

Appendix C.
Order of the Superior Court of Alameda County
that denied my Verified Petition for Writ of
Mandate to Compel DIR to Transfer my Case to
the Office of the Administrative Hearings of the
California Department of General Services (in a
form of a Notice Motion with the Superior
Court's leave), case No. RG17881790, July 27,
2018.

Division of Labor Standards
Enforcement
Attn: Seitz, Nicholas
455 Golden Gate Avenue
9th Floor
San Francisco, CA 94102

Tatyana E. Drevaleva
10660 Hidden Mesa Place
Monterey, CA 93940__

Superior Court of California, County of Alameda
Rene C. Davidson Alameda County Courthouse
No. RG17881790

Drevaleva
PlaintiffyPetitioner(s)

Order
VS.

Petition for Writ
Denied

Department of Industrial Relations
Defendant/Respondent( s)
(Abbreviated Title)

The Petition for a Writ of Mandate and a Declaratory Relief to Compel DIR to Transfer My Case to the
Department of General Services, filed by Plaintiff Tatyana E. Drevaleva ("Plaintiff') on May 24, 2018,
was set for hearing on July 26, 2018, at 3:00 p.m. in Department 22 before the Honorable Harry
Jacobs. A tentative ruling was published and was contested.
The matter was argued and submitted. Good cause appearing, IT IS HEREBY ORDERED THAT the
petition is DENIED.
First, the petition is procedurally deficient. It seeks an order compelling the defendant sued as
Department of Industrial Relations ("DIR") to "transfer my retaliation and unlawful termination claim
and my wage claim from DIR to the Department of General Services ["DGS"] to be reviewed by the
Administrative Law Judge pursuant to Government Code Section 11500 and subsequent." Although
Plaintiff does not specify the statutory basis of her "petition for writ of mandate," C.C.P. § 1085(a)
states: "A writ of mandate may be issued by any court to any inferior tribunal, corporation, board, or
person, to compel the performance of an act which the law specially enjoins, as a duty resulting from an
office, trust, or station, or to compel the admission of a party to the use and enjoyment of a right or
office to which the parly is entitled, and from which the party is unlawfully precluded by that inferior
tribunal, corporation, board, or person." A petition for such a writ must be in a "verified petition of the
party beneficially interested" and must set forth facts showing that "there is not a plain, speedy, and
adequate remedy, in the ordinary course of law." (C.C.P. § 1086; see also Elmore v. Imperial Irrigation
Dist. (1984) 159 Cal.App.3d 185, 193 ["the petition must plead facts showing (1) [respondent] has a
clear duty; (2) [petitioner] has a beneficial interest in [the] performance of that duty; (3) [respondent]
has the ability to perform the duty; (4) [respondent] has failed to perform the duty or has abused its
discretion in performing the duty; and (5) [petitioner] has no other plain, speedy or adequate remedy"];
Payne v. Superior Court (1976) 17 Cal.3d 908, 925.)
Plaintiff has not filed or served a verified petition meeting these elements. Instead, her "petition" is in
the form of a notice of motion, filed in her pending case seeking damages from DIR for alleged libel and
negligence. Among other things, the "petition" is not "verified," which requires the pleader to certify or
declare "under penalty of perjury that the foregoing is true and correct." (See C.C.P. § 2015.5; Myzer
v. Emark Corp. (1996) 45 Cal.App.4th 884, 890, n. 4.) Although there is an accompanying
"Declaration to Petition for a Writ of Mandate and Declaratory Relief to Transfer the Case to DGS,"
neither the notice of motion nor declaration is in the form of a "verified petition" - i.e. a verified initial
pleading setting forth the allegations and relief sought in a manner that meets the requirements of
sections 1085 and 1086 addressed above. Further, the declaration does not sufficiently identify the

Order

"case" that Plaintiff seeks to "transfer," or the specific statute setting forth a "clear duty" by the Labor
Commissioner to transfer such a "case" to DGS upon a request by a claimant, particularly where (as
here) the "case" has been closed for a long period of time. (See Complaint, unnumbered p. 8 [alleging
that DIR made a determination not to pursue Plaintiffs retaliation claim as described in a determination
letter dated December 28, 2016].) It is also not clear that Plaintiff properly served the "petition" on
DIR. (See, e.g., C.C.P. § 1096 [application for writ "must be served in the same manner as a summons
in a civil action, except when otherwise expressly directed by order of the Court."])
Second, even if the petition were procedurally compliant, it does not set forth facts or authority giving
rise to a clear duty by DIR or the Labor Commissioner to hold a hearing on the claims that DIR
previously investigated and determined not to pursue on Plaintiffs behalf, or to "transfer" any such
claim or hearing to the DGS. The applicable statutes and authority addressing the Labor
Commissioner's duties as to such claims reflect that holding hearings on such claims is discretionary
rather than mandatory. (See, e.g., Corrales v. Bradstreet (2007) 153 Cal.App.4th 33, 50 ["The
commissioner is under no duty to accept an employee's claim in the first instance, and a decision by the
commissioner not to conduct a Berman hearing would not be subject to de novo review...."]; Lab. Code
§ 98(a) ["The Labor Commissioner may provide for a hearing in any action to recover wages, penalties,
and other demands for compensation...."]; Lab. Code, § 98.7(b)(1) ["Each complaint of unlawful
discharge or discrimination shall be assigned to a discrimination complaint investigator who shall
prepare and submit a report to the Labor Commissioner based on an investigation of the complaint....
The Labor Commissioner may hold an investigative hearing whenever the Labor Commissioner
determines that a hearing is necessary to fully establish the facts...."])
The petition and supporting papers do not specify which, if any, of the statutes in "Government Code
Section 11500 and subsequent" impose a clear duty on the Labor Commissioner to transfer a closed
investigation to the DGS. Although Plaintiffs reply memorandum cites additional authority, including
Government Code §§ 11370.2, 11370.3, 11370.5 and 11501(b), the court need not consider such
authority as it was not specified in the petition or supporting papers as the basis for the requested writ.
Even if considered, however, such authority does not reflect a mandatory or "clear duty" to hold a
hearing or to transfer a closed case to the DGS under the circumstances disclosed in the papers. (Id.)
Third, although the petition seeks "declaratory relief," it does not specify the form of such relief or set
forth facts supporting it. (See C.C.P. § 1060.)
Fourth, to the extent the petition or motion seeks attorney's fees, it is deficient because Plaintiff is not an
attorney and has not offered evidence of having incurred "attorney's fees" to an attorney in any specified
amount. (See, e.g., Trope v. Katz (1995) 11 Cal.4th 274, 292 [self-represented litigant is not entitled to
recover for the value of his or her own time].)
The clerk is directed to serve copies of this order, with proof of service, to counsel and to selfrepresented parties of record by mail, which shall satisfy the purposes of notice of entry of order under
C.C.P. § 1019.5(a).
----

Dated: 07/27/2018
facsimile

Judge Harry Jacobs

Order

Appendix D.
Order of the Superior Court of Alameda County
that sustained DIR's Demurrer without leave to
amend to the remaining allegations within the
Second Cause of Action 'Professional
Negligence" and that dismissed the action in
case No. RG17881790, August 17, 2018.

Division of Labor Standards
Enforcement
Attn: Seitz, Nicholas
455 Golden Gate Avenue
9th Floor
San Francisco, CA 94102

Tatyana E. Drevaleva
10660 Hidden Mesa Place
Monterey, CA 93940__

Superior Court of California, County of Alameda
Rene C. Davidson Alameda County Courthouse
No. RG17881790

Drevaleva
Plaintif£7Petitioner(s)

Order
VS.

Demurrer to Complaint
Sustained

Department of Industrial Relations
Defendant/Respondent(s)
(Abbreviated Title)

The Demurrer to Plaintiffs Complaint, filed by State of California, Department of Industrial Relations
("DIR"), Division of Labor Standards Enforcement (sued as "Department of Industrial Relations") on
February 9, 2018, was set for hearing on June 26, 2018, at 3:00 p.m. in Department 22 before the
Honorable Harry Jacobs. A tentative ruling was published and was contested.
The matter was argued and submitted. Good cause appearing, IT IS HEREBY ORDERED as follows:
A. First Cause of Action
The demurrer to the First cause of action for libel is DROPPED as moot in light of the court's
accompanying order granting DIR's special motion to strike the First cause of action from the complaint
pursuant to C.C.P. section 425.16. Nevertheless, even if the court had not stricken the cause of action
pursuant to section 425.16, it would sustain DIR's demurrer to the entire First cause of action for the
reasons discussed below and in the court's accompanying order on the special motion to strike.
B. Second Cause of Action
As discussed in the court's accompanying order on the special motion to strike, the Second cause of
action for "Negligence (California Civil Code Section 1714(a))" arises out of DIR's investigation and
handling of retaliation and wage claims Plaintiff filed with the DIR against her former employer,
Alameda Health System ("AHS"), in September 2013 and October 2013. (Complaint, unnumbered pp.
4 and 16.)
In her preliminary factual allegations, Plaintiff refers to the following alleged acts or omissions as
supporting her "negligence" claim against DIR: (1) Assistant Labor Commissioner Rood's and Deputy
Healy's alleged failure to mail the December 29, 2016 determination letter to Plaintiff (Complaint,
unnumbered p. 7:15-21); (2) Assistant Labor Commissioner Rood's statement in the December 29, 2016
detennination letter that the question of whether Plaintiff performed negligently during her employment
for AHS was beyond the Labor Commissioner's jurisdiction (id., p. 10:15-20); (3) Deputy Daly's
alleged failure to ask AHS for a detailed explanation of Plaintiffs actions that AHS considered negligent
(id., p. 10:20-27); (4) Deputy Daly's alleged failure to accept Plaintiffs explanation of why the
termination of her employment was retaliatory (id., p. 10:27-28); (5) Deputy Daly's alleged failure to
interview all the witnesses identified in Plaintiffs June 18, 2014 letter (id., p. 11:1-14); (6) Deputy
Daly's alleged failure to investigate Plaintiffs claim and suspect that AHS was lying (id., p. 11:15-21);
(7) Assistant Labor Commissioner Rood's statement in the December 29, 2016 determination letter that

Order

AHS explained to Plaintiff why her complaints about alleged wage violations were invalid (id., p.
11:22-12:2); (8) Deputy Santos's statement in the January 7, 2014 letter that "the Division does not
have jurisdiction over claims for overtime, rest period premiums, differential pay, or waiting time
penalties for county employees" (id., p. 16:15-21); (9) Deputy Santos's alleged failure to advise in the
January 7, 2014 letter how Plaintiff could pursue her wage claim (id., p. 16:22-27); (10) DIR's
investigation of Plaintiff s retaliation claim spanning more than three years (id., p. 16:14-15); (11) DIR's
alleged attempt to force Plaintiff to withdraw her retaliation claim (id., p. 22:17-18); and (12) DIR's
alleged failure to recognize fraud and negligence by AHS (id., p. 22:20-21.)
In the portion of the complaint designated "Summary," Plaintiff summarizes the "Second cause of
action: Negligence (California Civil Code Section 1714(a)," as follows: "1) DIR failed to contact with
all witnesses whom I listed in my letter to Ms. Daly dated June 18th, 2014 and August 6th, 2016, 2)
DIR recklessly disregarded the main witness Dr. Sina Rachmani who can confirm that my EKG reading
was correct, 3) DIR processed my claim for a huge amount of time - over three years causing me a lot
of suffering, pain, and pushing me into a huge financial debt, 4) DIR attempted to force me to withdraw
my claim thus depriving me the opportunity to get reinstated back to work and to get all not received
wages, benefits, and other compensation, 5) DIR never sent me the Determination letter thus depriving
me an opportunity to file an appeal with Ms. Baker, 6) intentionally failing to recognize fraud and
negligence committed by AHS towards me. DIR knew that I didn't perform negligence toward the
patient but continued to support my retaliator AHS." (Complaint, unnumbered p. 23.)
In its accompanying order granting in part DIR's special motion to strike, the court ordered the portion
of the cause of action described in item (4) of the above paragraph, and items (2), (7), (8) and (11) of
the paragraph above that, stricken from the complaint pursuant to C.C.P. section 425.16. Thus, the
demurrer is DROPPED as moot to the extent it addresses those portions of the cause of action.
Nevertheless, even if the court had not stricken such portions of the cause of action pursuant to section
425.16, it would sustain DIR's demurrer to the entire Second cause of action for the reasons discussed
below.
The demurrer to the remaining portions of the Second cause of action is SUSTAINED, pursuant to
C.C.P. § 430.10(e), WITHOUT LEAVE TO AMEND. Plaintiff has not included allegations sufficient
to constitute a cause of action against DIR based on such alleged conduct. As discussed in DIR's
memoranda of points and authorities, Plaintiffs claims for relief are legally deficient as a matter of law
in light of the statutory immunities applicable to entities such as DIR who are sued for their statements
and conduct in carrying out their governmental functions.
First, the alleged statements and conduct supporting the negligence cause of action are immune under
Government Code section 820.2, which states: "Except as otherwise provided by statute, a public
employee is not liable for an injury resulting from his act or omission where the act or omission was the
result of the exercise of the discretion vested in him, whether or not such discretion be abused." Under
this statute, immunity applies to "basic policy decisions [which have] ... been [expressly] committed to
coordinate branches of government," and as to which judicial interference would thus be "unseemly."
(Caldwell v. Montoya (1995) 10 Cal.4th 972, 981, quoting Johnson v. State of California (1968) 69
Cal.2d 782, 793.) Although "ministerial" decisions that merely implement a basic policy already
formulated are not immunized, immunity applies "to deliberate and considered policy decisions, in
which a '[conscious] balancing [of] risks and advantages ... took place." (Id.)
Plaintiffs claims that the deputy labor commissioners assigned to her wage and retaliation complaints
failed to contact certain witnesses, "disregarded" another witness, unduly delayed processing her claim
and failed to send a determination letter to a specified address, as well as making false statements and
erroneous determinations in the process, allege precisely the type of involve the type of "deliberate and
considered policy decisions" covered by the section 820.2 immunity. (Cf. Masters v. San Bernardino
County Employees Retirement Assn. (1995) 32 Cal.App.4th 30, 45 ["Adjudicatory decisions of
administrative tribunals are a classic example of the kind of discretion vested in public officials which is
intended to be immunized"]; Yee v. Mobilehome Park Rental Review Bd. (City of Escondido) (1998) 62
Cal.App.4th 1409, 1427 [members of mobile home rent review board were immune from liability from
their determination under section 820.2 despite claim they abused their discretion in failing to receive
substantial evidence in support of a rental increase decision]; Ogbom v. City of Lancaster (2002) 101
Cal.App.4th 448, 460 [director of city department of community development who presided at nuisance
abatement hearing was entitled to immunity from trespass and conversion claims based on entry and
demolition of tenant's house following the hearing].)

Order

Labor Code section 98.7, pertaining to complaints of employment discrimination made to the DIR, gives
the DIR broad discretion in investigating such complaints and determining whether to pursue claims
against the employer identified therein. (See, e.g., Lab. Code § 98.7(a) ["The division may, with or
without receiving a complaint, commence investigating an employer...."]; Lab. Code § 98.7(b)(1) ["The
Labor Commissioner may hold an investigative hearing whenever the Labor Commissioner determines
that a hearing is necessary to fully establish the facts.... If a complainant files an action in court against
an employer based on the same or similar facts as a complaint made under this section, the Labor
Commissioner may, at his or her discretion, close the investigation. If a complainant has already
challenged his or her discipline or discharge through the State Personnel Board, or other internal
governmental procedure, or through a collective bargaining agreement grievance procedure that
incorporates antiretaliation provisions under this code, the Labor Commissioner may reject the
complaint."]; Lab. Code § 98.7(c)(1) ["If the Labor Commissioner determines a violation has occurred,
the Labor Commissioner may issue a determination in accordance with this section or issue a citation in
accordance with Section 98.74."]) Similar discretion is provided under Labor Code § 98.3, pertaining
to pursuing claims against employers for wages. (See Lab. Code § 98.3 ["The Labor Commissioner
may prosecute all actions for the collection of wages, penalties, and demands of persons who in the
judgment of the Labor Commissioner are financially unable to employ counsel and the Labor
Commissioner believes have claims which are valid and enforceable."])
Second, the alleged "negligent" acts or omissions are immune under Government Code § 821.6, which
states: "A public employee is not liable for injury caused by his instituting or prosecuting any judicial or
administrative proceeding within the scope of his employment, even if he acts maliciously and without
probable cause." "California courts construe section 821.6 broadly in furtherance of its purpose to
protect public employees in the performance of their prosecutorial duties from the threat of harassment
through civil suits." (Doe v. State (2017) 8 Cal.App.5th 832, 843-844, quoting Gillan v. City of San
Marino (2007) 147 Cal.App.4th 1033, 1048.) "Courts have long held that acts undertaken in the course
of an investigation or in preparation for instituting a judicial proceeding cannot give rise to liability,
even if no proceeding is ultimately instituted." (Id., citing Gillan, supra, 147 Cal.App.4th at p. 1048;
Richardson-Tunnell v. School Insurance Program for Employees (SIPE) (2007) 157 Cal.App.4th 1056,
1062; Ingram v. Flippo (1999) 74 Cal.App.4th 1280, 1293 [district attorney was immune under section
821.6 for making known the results of his investigation into alleged wrongdoing, including in a press
release, "even though he decided not to prosecute an action at the time."]) As discussed above, the
applicable statutes give the Labor Commissioner broad discretion in investigating and deciding whether
to pursue administrative or judicial proceedings against an employer who is the subject of a retaliation
or wage claim, including whether to commence an investigation, whether to hold an investigative
hearing, whether to close the investigation, whether to reject the complaint, whether to issue a
determination or send a citation in accordance with Section 98.74, and whether to prosecute an action
for the collection of wages, penalties, and demands of employees. (See, e.g., Lab. Code § 98.7, subds.
(a), (b)(1) and (c)(1), and § 98.3.)
Third, Government Code section 815(a) states: "Except as otherwise provided by statute: (a) A public
entity is not liable for an injury, whether such injury arises out of an act or omission of the public entity
or a public employee or any other person." Plaintiffs second cause of action for "professional
negligence" seeks to impose liability on the DIR for allegedly negligently investigating Plaintiffs
retaliation claim, including by failing to interview certain witnesses, "negligently" believing explanations
made by AHS, negligently determining the Labor Commissioner lacked jurisdiction as to Plaintiffs
wage claims, and the like. The cited statutory basis for such cause of action is Civil Code § 1714,
which states a general principle that "[e]veryone is responsible ... for an injury occasioned to another by
his or her want of ordinary care or skill in the management of his or her property or person...." A
common law negligence theory, even if based on Civil Code § 1714, is not a sufficient statutory basis
for imposing liability on a public entity. (See Eastbum v. Regional Fire Protection Authority (2003) 31
Cal.4th 1175, 1180 and 1182.)
Fourth, to the extent the negligence claim is based on DIR's statements and determinations, DIR is
privileged from liability under Civil Code section 47, which states: "A privileged publication or
broadcast is one made: (a) In the proper discharge of an official duty" or "(b) ... (3) in any other official
proceeding authorized by law...." (See, e.g., Ingram v. Flippo, supra, 74 Cal.App.4th at pp. 1293-1294
[official duty privilege under section 47(a) and 47(b)(3) applied to statements by district attorney in
press release as to the results of his investigation into wrongdoing]; Silberg v. Anderson (1990) 50
Cal. 3d 205, 213 [purpose of the privilege "is to assure utmost freedom of communication between

Order

citizens and public authorities whose responsibility is to investigate and remedy wrongdoing"].) This
conclusion is consistent with numerous cases holding that statements made in connection with
government investigations are privileged under section 47. (See, e.g., Braun v. Bureau of State Audits
(1998) 67 Cal.App.4th 1382, 1389-1390 ["statements made in fiirtherance of Reporting Act audits are
absolutely privileged under Civil Code section 47"]; Kemmerer v. County of Fresno (1988) 200
Cal.App.3d 1426, 1441 [civil service investigation]; O'Shea v. General Telephone Co. (1987) 193
Cal.App.3d 1040, 1047-1049 [California Highway Patrol background employment investigation]; Dong
v. Board of Trustees (1987) 191 Cal.App.3d 1572, 1594 [National Institutes of Health investigation];
Green v. Cortez (1984) 151 Cal.App.3d 1068, 1073 [internal police investigation]; King v. Borges
(1972) 28 Cal.App.3d 27, 32 [Real Estate Commissioner investigation].)
Fifth, although Plaintiff alleges in one or two places in the complaint that DIR or its deputy
commissioners violated a "mandatory duty" pursuant to Government Code section 815.6, liability on
this theory requires establishing that DIR was "under a mandatory duty imposed by an enactment" that
was "designed to protect" against the injury claimed and that the injury was "proximately caused" by the
public entity's failure to discharge its mandatory duty. (Haggis v. City of Los Angeles (2000) 22
Cal.4th 490, 498; Gov. Code § 815.6.) The first "and foremost" precondition to liability is that "the
enactment at issue be obligatory, rather than merely discretionary or permissive, in its directions to the
public entity...." (Haggis, supra, 22 Cal.4th at p. 498.)
"Thus, actionable mandatory duties have been found where a county failed to release an arrestee after
dismissal of charges as required by Penal Code section 1384 (Sullivan v. County of Los Angeles (1974)
12 Cal.3d 710), or where the agency failed to register a dismissal of charges as required by Penal Code
section 1384 (Bradford v. State of California (1973) 36 Cal.App.3d 16), or where the entity failed to
release the arrestee under the duty to release on bail prescribed by Penal Code section 1295
(Shakespeare v. City of Pasadena (1964) 230 Cal.App.2d 375)." (de Villers v. County of San Diego
(2007) 156 Cal.App.4th 238, 260.) "In each of these cases, the required action was clear and discrete
and required no evaluation of whether it had in fact occurred." (Id.) "In contrast, when the statutorily
prescribed act involves debatable issues over whether the steps taken by the entity adequately fulfilled
its obligation, we believe the act necessarily embodies discretionary determinations by the agency
regarding how best to fulfill the mandate, and this discretion removes the duty from the type of activity
that supports a claim under section 815.6." (Id., p. 271.)
Plaintiffs allegations supporting her "negligence" cause of action - including that DIR failed to contact
certain witnesses, "disregarded" another witness, unduly delayed processing Plaintiffs claim, failed to
send a determination letter to a specified address, made incorrect statements about the Labor
Commissioner's jurisdiction, negligently believed Plaintiffs former employer's explanation about the
matters, or sent a letter to Plaintiff encouraging her to withdraw her retaliation claim - do not state the
type of failure to take "required action [that] was clear and discrete and required no evaluation"
sufficient for liability under section 815.6. For example, though Labor Code section 98.7(a) states that
a retaliation complaint "shall be investigated by a discrimination complaint investigator in accordance
with this section," and section 98.7(b)(1) states that the "investigation shall include, where appropriate,
interviews with the complainant, respondent, and any witnesses who may have information concerning
the alleged violation, and a review of any documents that may be relevant to the disposition of the
complaint," it does not mandate interviewing the complainant, specified witnesses or other investigatory
actions in each and every case regardless of the circumstances, instead embodying "discretionary
determinations by the agency regarding how best to fulfill the mandate." (de Villers, supra, 156
Cal.App.4th at p. 271.)
As to the sending of a "determination letter," Plaintiff has not included allegations as to a "mandatory
duty imposed by an enactment," which is "obligatory, rather than merely discretionary or permissive,"
that was "designed to protect" against the injury claimed or that the injury was "proximately caused" by
the public entity's failure to discharge its mandatory duty. (Haggis, supra, 22 Cal.4th at p. 498.)
Though section 98.7(d)(1) states that if "the Labor Commissioner determines no violation has occurred,
he or she shall notify the complainant and respondent and shall dismiss the complaint," it does not
specify that this must be in the form of a "determination letter" or specify exactly how the
Commissioner is to "notify" the complainant. Plaintiff has not alleged that she was not notified of the
determination (and in fact acknowledges she was) but instead that a "letter" was not sent to a particular
mailing address.
As to Plaintiffs allegation that the determination was not made within one year after the filing of the

Order

complaint as specified in Labor Code section 98.7(e), Plaintiff has not alleged facts showing harm
proximately caused to her by the alleged delay, or established that this provision of section 98.7(e) was
"designed to protect" Plaintiff against any such injury. (See Haggis, supra, 22 Cal.4th at p. 498; Gov.
Code §815.6.) Plaintiff acknowledges she was notified early in the investigation that DIR was not
intending to exercise its discretion to pursue a claim against her former employer based on her
retaliation and wage claims, even though the formal determination as to the retaliation claim was not
sent until late 2016. Plaintiff has not alleged that she was precluded from pursuing her own claims
against AHS for alleged retaliation and/or wage claims, and in fact acknowledges she brought a
separate action against AHS in federal court (which is currently on appeal to the Ninth Circuit Court of
Appeals). Under the Labor Code statutes at issue, the Labor Commissioner has discretion whether to
pursue claims against an employer, independent of the employee's right to pursue such claims on his or
her own behalf.
Plaintiffs opposition papers do not sufficiently address or overcome any of the above statutory
immunities or other arguments rendering her claims legally deficient. Instead, Plaintiff argues that DIR
failed sufficiently to "explain" or prove the truth of its statements and determinations in the
investigation, and argues that she did not perform medical negligence towards a patient as DIR
intimated in its investigation. As discussed above, however, Plaintiffs claims are legally deficient
because of statutory immunities and privileges designed to protect governmental agencies and their
employees against lawsuits directed to their statements and discretionary decisions made in the course of
carrying out their duties, regardless of the asserted validity or invalidity of those decisions. Plaintiffs
arguments urging the erroneous or deficient nature of the investigations do not effectively counter this
authority or meet her burden of showing the legal sufficiency of her claims.
C. Plaintiff Did Not Request Leave to Amend
Plaintiffs opposition papers do not request leave to amend or make a sufficient showing how she could
amend to overcome the above deficiencies. (See Goodman v. Kennedy (1976) 18 Cal.3d 335, 349.) To
the contrary, in response to the court's inquiry at the hearing on June 26, 2018 whether Plaintiff was
requesting leave to amend or had a basis for amending, Plaintiff stated that she had no intention of
amending the complaint and instead would file an appeal if the demurrer were sustained. Accordingly,
the court does not grant leave to amend, which was not requested.
D. Requests for Judicial Notice
As discussed in the court's accompanying order on the special motion to strike, Plaintiff filed a Request
to take a Judicial Notice on March 19, 2018 and a Second Request to Take a Judicial Notice on April 9,
2018. The Requests do not include a reservation number on the caption page so it is not clear whether
they relate to the instant demurrer or to another motion that was on calendar on April 10, 2018, of
which there were two others. In the event the Requests pertain to the instant demurrer, they are
GRANTED, but the court does not take judicial notice of the truth of any of the matters asserted in the
attached exhibits and does not make any determination that the matters are relevant to the instant
demurrer.
E. Conclusion
In accordance with the above, IT IS ORDERED that DIR's demurrer to the complaint is SUSTAINED
WITHOUT LEAVE TO AMEND as to all portions of the complaint remaining after the court's
accompanying order striking portions thereof. As discussed above, even if the court had not stricken
such portions of the complaint pursuant to section 425.16, it would sustain DIR's demurrer to the entire
complaint for the reasons discussed above and in the court's accompanying order.
Accordingly, IT IS ORDERED that the entire action is DISMISSED.
The clerk is directed to serve copies of this order, with proof of service, to counsel and to selfrepresented parties of record by mail, which shall satisfy the purposes of notice of entry of order under
C.C.P. § 1019.5(a).

Order

v"

<2c£gg?

Dated: 08/17/2018

facsimile

Judge Harry Jacobs

Order

Appendix E.
Order of the Superior Court of Alameda County
that denied my Motion for Leave to File a
Motion for Reconsideration of the June 26,
2018 Order that denied my Motion to Stay,
case No. RG17881790, October 04, 2018.

Tatyana E. Drevaleva
10660 Hidden Mesa Place
Monterey, CA 93940__

Superior Court of California, County of Alameda
Rene C. Davidson Alameda County Courthouse
No. RG178 81790

Drevaleva
PlaintiftyPetitioner(s)

Order
VS.

Motion for Reconsideration
Denied

Department of Industrial Relations
Defendant/Respondent(s)
(Abbreviated Title)

The Motion to Reconsider the Court's Order Denying Staying the Proceeding, filed by Plaintiff Tatyana
Drevaleva ("Plaintiff) on July 19, 2018, was set for hearing on October 2, 2018, at 3:00 p.m. in
Department 22 before the Honorable Robert McGuiness. A tentative ruling was published and was
contested.
The matter was argued and submitted. Good cause appearing, IT IS HEREBY ORDERED THAT the
motion is DENIED, including for the following reasons.
The motion seeks to have the court reconsider its order of June 26, 2018, in which the court denied
Plaintiffs motion to stay the proceeding filed on April 9, 2018. On August 17, 2018, the court issued
an order granting in part the Special Motion to Strike Plaintiffs Complaint Pursuant to Code of Civil
Procedure Section 425.16, filed on March 9, 2018, by State of California, Department of Industrial
Relations ("DIR"), Division of Labor Standards Enforcement (sued as "Department of Industrial
Relations"). The order struck Plaintiffs first cause of action in its entirety and part of the second cause
of action. On the same date, the court issued an order sustaining DIR's demurrer to the complaint
without leave to amend "as to all portions of the complaint remaining after the court's accompanying
order striking portions thereof." The order included the following directive: "Accordingly, IT IS
ORDERED that the entire action is DISMISSED."
First, the court lacks jurisdiction to rule on a motion for reconsideration of an interim order seeking a
stay of the proceeding in light of the written order of dismissal of the entire action. (See APRI Ins. Co.
v. Superior Court (1999) 76 Cal.App.4th 176, 181.) A written order of dismissal on the demurrer
constitutes a judgment under C.C.P. section 58 Id. (See Melbostad v. Fisher (2008) 165 Cal.App.4th
987, 994 ["the trial court's order granting defendants' anti-SLAPP motion was a written order of
dismissal of the entire action, and therefore was a judgment pursuant to section 58 Id"]; Doe v. Luster
(2006) 145 Cal.App.4th 139, 147; Kahn v. Lasorda's Dugout, Inc. (2003) 109 Cal.App.4th 1118,
1120, n. 1 [order dismissing action in its entirety that is in writing, signed by the court, and filed in
action is appealable judgment].)
Second, the court lacks jurisdiction to reconsider its prior order because of a pending appeal. On
August 21, 2018, Plaintiff filed a Notice of Appeal from eight orders or rulings of the court issued on
August 17, 2018, including the two orders discussed above. Thus, this court no longer has jurisdiction
to consider a request for reconsideration of an order declining to stay the action, which is embraced by
the appeal. (See C.C.P. § 916; Varian Medical Systems, Inc. v. Delfino (2005) 35 Cal.4th 180, 189.)
Third, even if the court had jurisdiction to reconsider its interim order of June 26, 2018, declining to
stay the action, it would not do so. Plaintiff has not set forth by declaration what "new or different
facts, circumstances, or law are claimed to be shown" that she could not with reasonable diligence

Order

present at the prior hearing on June 26, 2018. (See C.C.P. § 1008(a); Gilberd v. AC Transit (1995) 32
Cal.App.4th 1494, 1500.) The law cited in Plaintiffs motion is not "new," having been decided 25
years ago. (See Caiafa Prof. Law Corp. v. State Farm Fire & Cas. Co. (1993) 15 Cal.App.4th 800,
804, and cases discussed therein.) The fact that Plaintiff filed an opening and reply brief with the Ninth
Circuit Court of Appeal on June 21, 2018, is a matter Plaintiff could have presented at the hearing on
June 26, 2018. Further, it does not provide a sufficient basis for the court to reconsider its decision not
to stay the action, which decision was amply supported by the facts and law.
The clerk is directed to serve copies of this order, with proof of service, to counsel and to selfrepresented parties of record by mail, which shall satisfy the purposes of notice of entry of order under
C.C.P. § 1019.5(a).

Dated: 10/04/2018
Judge Robert McGuiness

Order

Appendix F.
Order of the Court of Appeal for the First
District, Division Four that denied my Petition
for Rehearing in Appeal No. A156248, January
16, 2018.

Court of Appeal, First Appellate District

'«'• *•>

J?

Charles D, Johnson, Clerk/Executive Officer

Y

Electronically FILED on 1/16/2020 by C. Hoo, Deputy Clerk

COURT OF APPEAL, FIRST APPELLATE DISTRICT
350 MCALLISTER STREET
SAN FRANCISCO, CA 94102
DIVISION 4

TATYANA E. DREVALEVA,
Plaintiff and Appellant,
v.
DEPARTMENT OF INDUSTRIAL RELATIONS,
Defendant and Respondent.
A156248
Alameda County Super. Ct. No. RG17881790

Court of Appeal, First Appellate District

FILED
JAN 1 8 zom
Charles 0. Jonnsan, Clerk
-...... ..........
..Deputy Clerk

BY THE COURT:
The petition for rehearing is denied.

Date:

oruu

JAN ' 6 2020

STREEIER, ACTING P.J,

P.J.

Appendix G.
Order of the California Supreme Court that
denied my Petition for Review No. S260355,
April 15, 2020.

SUPREME COURT

FILED
Court of Appeal, First Appellate District, Division Four - No. A156248

APR 1 5 2020

Jorge Navarrete Clerk

S260355

IN THE SUPREME COURT OF CALIFORNIA
En Banc

TATYANA E. DREVALEVA, Plaintiff and Appellant,
v.
DEPARTMENT OF INDUSTRIAL RELATIONS, Defendant and Respondent.

The petition for review is denied.

CANTIL-SAKAUYE
ChiefJustice

Deputy

Appendix H.
Order of the California Supreme Court that
denied my Petition for Writ of Mandate No.
S260491, April 15, 2020.

SUPREME COURT

APR 1 5 2020
Jorge Navarrete Clerk

S260491
Deputy

IN THE SUPREME COURT OF CALIFORNIA
En Banc

TATYANA E. DREYALEV A, Petitioner,
v.
COURT OF APPEAL, FIRST APPELLATE DISTRICT, DIVISION FOUR,
Respondent;
DEPARTMENT OF INDUSTRIAL RELATIONS, Real Party in Interest.

The petition for writ of mandate is denied.

CANTIL-SAKAUYE
ChiefJustice

